                                                                         REPORT TO THE EMPLOYMENT

U.S. Department of Labor                                                 AND TRAINING ADMINISTRATION


                           Office of Inspector General—Office of Audit




                                                                         JOB CORPS CONTRACTOR AND DOL
                                                                         PROCUREMENT PRACTICES NEED
                                                                         IMPROVEMENT




                                                                                            Date Issued:   September 24, 2014
                                                                                         Report Number:      26-14-002-03-370
U.S. Department of Labor                                   September 24, 2014
Office of Inspector General
Office of Audit                                            JOB CORPS CONTRACTOR AND DOL
                                                           PROCUREMENT PRACTICES NEED
                                                           IMPROVEMENT
BRIEFLY…                                                   WHAT OIG FOUND
Highlights of report number 26-14-002-03-370, issued
                                                           ResCare and its prime contractors did not always
to the Assistant Secretary for Employment and Training.
                                                           comply with federal procurement regulations.
WHY READ THE REPORT                                        ResCare appeared to be an ostensible subcontractor to
                                                           2 small business contractors for their small business
Federal regulation established the ostensible              set-aside prime contracts to operate the Bamberg,
subcontractor rule to prevent large businesses from        Cleveland, Westover, and Northlands Job Corps
using small businesses to evade the Small Business         Centers. We found significant potential existed that:
Administration’s (SBA) small business size                 ResCare performed the primary and vital contract
requirements for federal procurements. This report         requirements at these 4 centers; the small businesses
highlights 4 Job Corps center operator contracts where     were unusually reliant on ResCare to operate the
small business prime contractors, Alutiiq Education and    centers; and that together, ResCare and the small
Training (AET) and Alutiiq Professional Services (APS),    businesses circumvented the rule established to ensure
and their large business subcontractor, ResCare, Inc.      small businesses could compete fairly for the small
(ResCare), appeared to have violated the ostensible        business set-aside contracts. We also found that the
subcontractor rule. As a result, up to $126.5 million in   U.S. Department of Labor (DOL) did not have the
government funds set aside for small businesses may        processes and controls to carefully consider ResCare’s
not have been used as intended. Additionally, this         relationship with the small businesses when awarding
report highlights instances where ResCare, as a prime      the prime contracts, as required by federal regulation.
contractor, did not comply with the Federal Acquisition
Regulation (FAR) and its own procurement policies          Additionally, we determined that ResCare, as a prime
when it awarded subcontracts and made purchases at         contractor, did not always comply with the FAR and its
the centers it operated.                                   own procurement policies when awarding subcontracts
                                                           and purchase orders at the centers it operated.
WHY OIG CONDUCTED THE AUDIT                                Significant deficiencies included soliciting and awarding
                                                           subcontracts without competitive bidding and open
We conducted this audit due to the procurement risks       competition, splitting purchases to fall under a monetary
associated with a prior SBA determination of an            threshold that required competition or sole-source
ostensible subcontracting violation involving ResCare,     justification, and making purchases without obtaining
as well as to follow up on a Fiscal Year 2012 OIG audit    required prior approvals.
that substantiated an anonymous complaint regarding
ResCare’s procurement practices. We performed work         WHAT OIG RECOMMENDED
to answer the following question:
                                                           In summary, we recommended the Assistant Secretary
Did the practices of ResCare and the prime contractors
                                                           for Employment and Training refer the small business
it performed work for comply with federal procurement
                                                           set-aside contracts we identified to SBA for review and
regulations?
                                                           guidance on corrective action, if warranted; develop
                                                           procedures and provide training to ensure each small
READ THE FULL REPORT                                       business set-aside contract is free of potential violations
                                                           of affiliation rules, conduct its planned procurement
To view the report, including the scope, methodology,      system review for ResCare in Fiscal Year 2015; and
and full agency response, go to:                           develop procedures to ensure ResCare complies with
http://www.oig.dol.gov/public/reports/oa/2014/26-14-       its own center operator contract provisions and
002-03-370.pdf.                                            procurement policies and procedures.

                                                           AET and APS disagreed with our conclusion that they
                                                           appeared to have violated the ostensible subcontractor
                                                           rule. However, ResCare and DOL agreed with our audit
                                                           results and recommendations, and stated that they had
                                                           either taken or planned to take corrective actions to
                                                           address the issues identified in this report.
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                             Contractor and DOL Procurement
                                Report No. 26-14-002-03-370
                                                        U.S. Department of Labor – Office of Inspector General




Table of Contents

Inspector General’s Report .......................................................................................... 1

Results ........................................................................................................................... 3

Objective — Did the practices of ResCare and the prime contractors it performed
work for comply with federal procurement regulations? .......................................... 3

          Job Corps Contractor and DOL Procurement Practices Need Improvement ........ 3

          A) ResCare Appeared to be an Ostensible Subcontractor to 2 Small
             Businesses. ..................................................................................................... 4
          B) ResCare Did Not Always Comply with the FAR and Its Own
             Procurement Policies. ................................................................................... 11

Recommendations ...................................................................................................... 15

Exhibit
          Exhibit 1: Potential Funds Not Used As Intended – Ostensible
          Subcontracting.................................................................................................... 21

Appendices
          Appendix A: Objective, Scope, Methodology, and Criteria ................................. 25
          Appendix B: Acronyms ....................................................................................... 31
          Appendix C: ETA Response to Draft Report ...................................................... 33
          Appendix D: ResCare Response to Draft Report ............................................... 37
          Appendix E: AYS Response to Draft Report ...................................................... 39
          Appendix F: Acknowledgements ........................................................................ 57




                                                                                      Contractor and DOL Procurement
                                                                                         Report No. 26-14-002-03-370
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                             Contractor and DOL Procurement
                                Report No. 26-14-002-03-370
                                                 U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                             Office of Inspector General
                                                     Washington, D.C. 20210




September 24, 2014

                                      Inspector General’s Report



Portia Wu
Assistant Secretary
 for Employment and Training
200 Constitution Avenue, NW
Washington, DC 20210


In Fiscal Year (FY) 2014, the Employment and Training Administration’s (ETA) Office of
Job Corps (Job Corps) program provided education, training, and support services to
approximately 60,000 students at 125 Job Corps Centers (JCC) throughout the United
States and Puerto Rico. As of June 2014, the Department of Labor (DOL) had
contracted with ResCare, Inc. (ResCare) to operate 12 centers under 9 separate prime
contracts. 1 As an operator, ResCare was directly responsible for center administration
and management, including the awarding of subcontracts for center goods and
services. As of June 2014, ResCare also had received subcontracts to provide services
at 5 centers operated by 3 small business prime contractors. ETA administered all Job
Corps prime contracts through its Office of Contracts Management (OCM). Prior to
October 2010, this responsibility belonged to the Office of the Assistant Secretary of
Administration and Management (OASAM).

We conducted this audit due to the procurement risks associated with a prior Small
Business Administration (SBA) determination on the contractor-subcontractor
relationship between a small business selected by OASAM for a small business
set-aside contract to operate a JCC with ResCare as its subcontractor. We also
conducted our audit to follow up on a FY 2012 performance audit the Office of Inspector
General (OIG) conducted in response to an anonymous complaint referred to us by
ETA’s OCM.

In 2010 and 2011, SBA found a small business was ineligible for a set-aside contract
because it would have allowed ResCare, a large business, to perform primary and vital
contract requirements intended for the small business. SBA also found this small
business was unusually reliant on ResCare’s qualifications to win the JCC contract. 2
Furthermore, weak procurement controls identified during our 2012 hotline complaint

1
  Private contractors and other federal agencies operate centers for DOL through competitive contracting processes
and interagency agreements, respectively.
2
  SBA Size Determination No. 6-2011-009 (2010) and subsequent decision SBA No. SIZ-5192 (2011).

                                                                             Contractor and DOL Procurement
                                                         1                      Report No. 26-14-002-03-370
                                                 U.S. Department of Labor – Office of Inspector General


audit regarding a specific subcontract awarded by ResCare indicated subcontracting
deficiencies may be systemic. 3 We performed work to answer the following audit
objective:

        Did the practices of ResCare and the prime contractors it performed work
        for comply with federal procurement regulations?

In order to answer the objective, we performed audit work in the following areas:

    A) Contractor-subcontractor relationships between JCC operators selected
       by DOL for small business set-aside contracts and ResCare as a
       subcontractor.

    B) Subcontracts ResCare awarded as the prime contractor operating JCCs.

Our scope for auditing contractor-subcontractor relationships between small businesses
and ResCare included the information relevant to the prime contracts and subcontracts
in effect during FYs 2011 through 2012 (October 1, 2010, through September 30, 2012).
The audit team reviewed information obtained from ETA; ResCare; Alutiiq Education
and Training, LLC (AET) and Alutiiq Professional Services, LLC (APS)—collectively
referred to as Alutiiq Youth Services, LLC (AYS), the umbrella company for the prime
operators of 6 of the 7 JCC contracts where ResCare was a subcontractor. 4 We also
reviewed the basis for SBA’s determination that a small business was ineligible for the
small business set-aside contract to operate the Turner JCC because ResCare was its
ostensible subcontractor. 5 While SBA has stated prior size determination cases are not:
(1) binding on either a SBA Government Contracting Area Office or its Office of
Hearings and Appeals; (2) precedent-setting for other cases; or (3) controlling in any
other size determination case, SBA has cited prior size determinations in a number of
cases for illustrative purposes. 6 Accordingly, we used our comparison to SBA’s Turner
decision for illustrative purposes and neither made a size determination regarding AET
or APS for the contracts-subcontracts we tested, nor concluded that ResCare
definitively was an ostensible subcontractor for any of the contracts-subcontracts we
tested, as these areas are the sole purview of SBA. 7

Our scope for auditing subcontracts ResCare awarded as the prime contractor covered
FY 2011 through FY 2012. We judgmentally selected and reviewed subcontract and

3
  OIG Report No. 26-12-004-03-370, Conflict of Interest Complaint on a Job Corps Center Operator Subcontract
Award had Merit (Washington, DC: September 28, 2012).
4
  Our scope included 2 centers no longer operated by AYS, which included 2 subcontracts to ResCare, as of June
2014.
5
  SBA Size Determination No. 6-2011-009 (2010) and subsequent decision SBA No. SIZ-5192 (2011). The ostensible
subcontractor rule, 13 CFR 121.103 (h)(4), stated that when a subcontractor performs the primary and vital
requirements of a contract, … , or the prime contractor unusually relies upon a subcontractor, SBA considers the 2
businesses affiliated for the purposes of that procurement. In these cases, the small businesses are ineligible for
small business set-aside contracts.
6
  For example, see SBA No. SIZ-5066 (2009), SBA No. SIZ-5269 (2011), SBA No. SIZ-5371 (2012), and SBA No.
SIZ-5504 (2013).
7
  The FAR Part 19, Subpart 19.301-1.

                                                                          Contractor and DOL Procurement
                                                        2                    Report No. 26-14-002-03-370
                                                 U.S. Department of Labor – Office of Inspector General


purchase order (PO) transactions made by 4 of the 14 JCCs operated by ResCare
during the period: Guthrie, Old Dominion, Pinellas, and South Bronx. 8

We conducted audit work at ETA headquarters in Washington, DC, and additional
fieldwork at our Chicago, IL; San Francisco, CA; and Washington, DC offices. See
Appendix A for a detailed description of our audit scope and methodology.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

RESULTS

Objective — Did the practices of ResCare and the prime contractors it performed
            work for comply with federal procurement regulations?

        Job Corps Contractor and DOL Procurement Practices Need Improvement

ResCare and its prime contractors did not always comply with federal procurement
regulations in ResCare’s performance of work as a subcontractor, as well as ResCare’s
procurement activity as a prime contractor for JCC contracts.

ResCare and 2 small business prime contractors appeared to have circumvented the
ostensible subcontractor rule (13 CFR 121.103 (h)(4)), which was established to
prevent large businesses from using small businesses to evade SBA’s small business
size requirements. Furthermore, DOL did not carefully consider the relationships
between ResCare and these 2 small businesses as required by the Federal Acquisition
Regulation (FAR) when awarding the prime contracts, which likely contributed to the
potential ostensible subcontracting violations we identified. 9 Ostensible subcontractor
rule violations are the sole purview of SBA, but we identified sufficient evidence in
4 subcontracts ResCare received that we believe warrant an ETA referral to SBA for
review and guidance on corrective action, if warranted. 10 If SBA determines any of
these 4 contracts-subcontracts violated the ostensible subcontractor rule, up to $126.5
million in government funds set aside for small businesses were not used as intended.


8
  Our scope included 2 centers no longer operated by ResCare as of June 2014.
9
  The FAR Part 19, Subpart 19.301-1 (b), the FAR Part 19, Subpart 19.302 (b), and the FAR Part 44, Subpart
44.202-2(b). While the FAR Part 44, Subpart 44.202-2(b) referred to post award subcontracts, DOL, in practice,
approved subcontracts specified in subcontracting plans submitted by potential small business prime contractors as
part of the prime contract award for the operation of JCCs.
10
   Federal regulation allows ETA to make post-award protests to SBA’s Government Contracting Area Office. COs
have no time limitation to file a protest and as such, may file a protest before or after an award. Moreover, CO
protests are always considered timely whether filed before or after award. See the FAR Part 19, Subpart 19.302 (b)
and the FAR Part 19, Subpart 19.302 (c)(1), and the FAR Part 19, Subpart 19.302 (d)(2).

                                                                           Contractor and DOL Procurement
                                                         3                    Report No. 26-14-002-03-370
                                                 U.S. Department of Labor – Office of Inspector General


We also determined ResCare, as a prime contractor, did not comply with the FAR and
its own procurement policies when awarding subcontracts and POs at the centers it
operated. ResCare’s procurement records failed to demonstrate that ResCare awarded
subcontracts through open competition and made purchases with required center
approvals.

A) ResCare Appeared to be an Ostensible Subcontractor to 2 Small Businesses.

ResCare appeared to be an ostensible subcontractor to AET and APS for their 4 small
business set-aside prime contracts to operate the Bamberg, Cleveland, Westover, and
Northlands JCCs. We found significant potential existed that: ResCare performed the
primary and vital contract requirements at these 4 JCCs; AET and APS were unusually
reliant on ResCare to operate the centers; and that together, ResCare, AET, and APS
circumvented the rule established to ensure small businesses could compete fairly for
the small business set-aside contracts. We also found DOL lacked the processes and
controls to carefully consider ResCare’s relationship with AET and APS when awarding
the prime contracts, as required by the FAR.

We did not make a size determination regarding AET and APS or conclude that
ResCare definitively was an ostensible subcontractor for the 4 contracts we identified,
as these areas are the sole purview of SBA. As such, we believe ETA should refer
these procurements to SBA for review, as well as seek SBA guidance on corrective
action, if warranted. 11 If SBA determines any of these 4 contracts-subcontracts violated
the ostensible subcontractor rule, up to $126.5 million in government funds set aside for
small businesses were not used as intended.

Small Business Set-Asides and FAR Requirement to Consider Relationships and
Affiliations

At the beginning of each FY, SBA negotiates with agencies to establish individual small
business contracting and subcontracting goals that, in the aggregate, constitute
government-wide goals. SBA is responsible for ensuring it establishes government-wide
goals for participation of small business concerns at the statutory levels, and that
agencies report their achievements relative to their respective agency goals. 12 DOL
posts procurement opportunities more than $25,000, including those set aside for small
businesses, on FedBizOpps.gov. 13




11
   Federal regulation allows ETA to make post-award protests to SBA’s Government Contracting Area Office. COs
have no time limitation to file a protest and as such, may file a protest before or after an award. Moreover, CO
protests are always considered timely whether filed before or after award. See the FAR Part 19, Subpart 19.302 (b)
and the FAR Part 19, Subpart 19.302 (c)(1) ), and the FAR Part 19, Subpart 19.302 (d)(2).
12
   Each agency that fails to achieve any proposed prime or subcontract goal is required to submit a
justification to SBA on why they failed to achieve a proposed or negotiated goal with a proposed plan of corrective
action.
13
   Fedbizopps.gov is the single government point-of-entry for Federal government procurement opportunities over
$25,000.

                                                                            Contractor and DOL Procurement
                                                          4                    Report No. 26-14-002-03-370
                                                U.S. Department of Labor – Office of Inspector General


In its decision on whether or not to set aside a solicitation for small businesses, DOL is
not required to make determinations of responsibility with regard to prospective offerors;
rather DOL is required to make an informed business judgment that there are small
businesses expected to submit offers that are capable of performing the contract. 14
Once DOL decides to set aside a contract for small businesses, DOL clearly indicates in
the solicitation that the procurement opportunity is set aside for small businesses, and
includes the small business size standard, as well as governing FAR clauses. DOL
does not require small businesses to submit a subcontracting plan with their bids, but
includes language in solicitations that requests small businesses submitting bids
provide a listing of subcontracts that were anticipated. As part of this list, small
businesses should include, at a minimum, a list of the functions, tasks, and positions
proposed and their anticipated dollar values. DOL evaluates the bids received based on
the evaluation factors specified in the solicitation, performs a cost-realism analysis, and
either makes an award or does not make an award accordingly.

Once DOL sets aside a solicitation for small businesses, DOL is required to consider
ostensible subcontracting as part of the contract award process. Specifically, the FAR
requires DOL to accept an offeror’s small business size representation unless another
offeror submits a size protest, or the Contracting Officer (CO) has reason to question
the small business size status of an offeror. 15 In practice, however, DOL approved
subcontracts specified in subcontracting plans submitted by potential small business
prime contractors as part of the prime contract award for the operation of JCCs. As
such, DOL had a responsibility to carefully consider potential close working
relationships or affiliations, such as ostensible subcontracting, between prime and
subcontractors that may hinder free competition or result in higher prices. 16

Potential Ostensible Subcontracting Violations

As of FY 2012, 3 JCC operators with small business set-aside prime contracts awarded
7 subcontracts to ResCare. Through its subcontracts with AET, APS, and Education
Management Corporation (EMC), ResCare provided services such as academics,
career preparation, career training and transition, safety and security, and management
support. See Table 1 for the value of these subcontracts awarded to ResCare by the
7 operators for each of the 7 centers.




14
   GAO Bid Protest decision, Marshall & Swift-Boeckh, B-407329; B-407329.2 (December 18, 2012).
15
   The FAR Part 19, Subpart 19.301-1 (b).
16
   The FAR Part 19, Subpart 19.301-1 (b), the FAR Part 19, Subpart 19.302 (b), and the FAR Part 44, Subpart
44.202-2(b).

                                                                          Contractor and DOL Procurement
                                                        5                    Report No. 26-14-002-03-370
                                                   U.S. Department of Labor – Office of Inspector General


Table 1: JCC Subcontracts Awarded to ResCare
                                      Dollar Value of ResCare                     Active (Yes/No/Pending)
JCC Name       JCC Center Operator    Subcontracts (rounded)
Westover       AET                    $21.3 million                               Yes
                                                                                  Yes
Bamberg              AET                          $6.5 million
                                                                                  Yes
Detroit              AET                          $10.5 million
                                                                                  Yes
Flint/Genesee        APS                          $10.4 million
Phoenix              EMC                          $9.7 million                    Yes
                                  Total Active    $58.4 million
Cleveland            AET                          $5 million                      No
Northlands           APS                          $10.4 million                   No
                                Total Inactive    $15.4 million

We tested all 7 subcontracts ResCare received from the 3 small business center
operators using factors SBA cited in its Turner decision, such as academics and career
technical training, including staffing for these areas, proposed key and total JCC
staffing, technical proposal element weights, and percentage of subcontracted work. As
we previously discussed, prior size determination cases are not binding on SBA and do
not set precedent for or control other cases; however, SBA has cited prior size
determinations in a number of cases for illustrative purposes. Accordingly, we used our
comparison to SBA’s Turner decision for illustrative purposes and neither made a size
determination regarding AET or APS for the contracts-subcontracts we tested, nor
concluded that ResCare definitively was an ostensible subcontractor for any of the
contracts-subcontracts we tested, as these areas are the sole purview of SBA.

Our results indicated ResCare appeared to be an ostensible subcontractor to AET and
APS for 4 JCC small business set-aside contracts. SBA considers factors such as
ownership, management, previous relationships with or ties to another business, and
contractual relationships, in determining whether affiliation exists, as defined by
13 CFR §121.103 (a). If SBA determined a small business violated affiliation rules to
obtain a small business set-aside procurement, SBA considers the small business as
other than small and therefore ineligible for that procurement. 17 Affiliation may occur in a
number of ways, one of which is ostensible subcontracting. The ostensible
subcontractor rule, 13 CFR 121.103 (h)(4), states when a subcontractor performs the
primary and vital requirements of a contract … or the prime contractor unusually relies
upon a subcontractor, SBA considers the 2 businesses affiliated for the purposes of that
procurement. According to SBA, to make a determination of ostensible subcontracting,
SBA considers all aspects of the relationship between the prime and subcontractor,
including the terms of the proposal (such as contract management, technical
responsibilities, and the percentage of subcontracted work); agreements between the
prime and subcontractor (such as teaming agreements); and whether the subcontractor
was the incumbent contractor, but was ineligible to submit a proposal because it
exceeded the applicable size standard for that solicitation.

17
     SBA uses the terminology “other than small” in small business size determination cases.

                                                                             Contractor and DOL Procurement
                                                           6                    Report No. 26-14-002-03-370
                                                 U.S. Department of Labor – Office of Inspector General


The bid proposals AET and APS submitted to ETA and OASAM for its JCC small
business set-aside prime contracts for center operation at the Bamberg, Cleveland, and
Westover JCCs (AET) and the Northlands JCC (APS) contained significant similarities
to AET’s proposal to operate the Turner JCC, where SBA found in 2010 that AET, a
small business, would have allowed ResCare, a large business, to perform primary and
vital contract requirements intended for AET. SBA also found that AET was unusually
reliant on ResCare’s qualifications to win the Turner JCC contract. For example,
ResCare personnel would have comprised the majority of the staff for academics and
career technical tasks—over 96 percent and 85.7 percent—respectively. At the 4 JCCs
we identified, ResCare personnel comprised 81.8 percent to 100 percent (academics)
and 78.9 percent to 94.2 percent (career technical). We also identified similarities
between other technical responsibilities and percentage of work subcontracted to
ResCare, as well as reliance on ResCare’s staff and qualifications to operate these
4 JCCs. Table 2 summarizes the significant, though not all-inclusive, similarities on
which we based our conclusion that ResCare appeared to be an ostensible
subcontractor at 4 JCCs. 18




18
  While some staffing information changed from the proposed subcontracts as compared to the executed contracts,
the information in Table 2 represents the information available to the ETA and OASAM COs during the proposal
evaluation stage of these procurements. In addition, we determined that differences in staffing between the proposed
subcontracts and the executed subcontracts would not have materially altered our results.

                                                                           Contractor and DOL Procurement
                                                         7                    Report No. 26-14-002-03-370
                                                  U.S. Department of Labor – Office of Inspector General


Table 2: Similarities of 4 JCC ResCare Subcontracts to Turner Case (SBA No. SIZ-5192)
                               Primary and Vital Contract Requirements
                              Turner              Bamberg        Cleveland                 Westover      Northlands
ResCare                                                                a,b                                     a,c
                         (SBA No. SIZ-5192)         AET            AET                       AET           APS
Responsible
Department
Agency for Prime                OASAM                          ETA              ETA         OASAM          OASAM
Contract Award to
AET or APS
Subcontract to
perform Career                    Yes                          Yes              Yes            Yes            Yes
Technical Training
Percentage of
Center's Career
                                85.71%                     78.95%             87.80%         85.42%         94.29%
Technical Tasks
Staff
Subcontract to
Perform                           Yes                          Yes              Yes            Yes            Yes
Academics
Percentage of
Center's                          96%                      94.12%              100%           100%          81.82%
Academic Staff
                                                 Unusual Reliance
                              Turner
ResCare:                                                 Bamberg            Cleveland      Westover      Northlands
                         (SBA No. SIZ-5192)
Subcontract
Percentage of                     23%                      19.12%             37.35%         27.22%         25.27%
Total Contract
Percentage of
Center's Full Time              32.22%                     24.16%             31.72%         34.48%         30.22%
Equivalent Staff

a
   AET and APS no longer operate the Cleveland and Northlands JCCs, respectively. As we previously
noted, the information in Table 2 represents the information available to the ETA and OASAM COs during
the proposal evaluation stage of these procurements.
b
   ETA awarded AET the Cleveland JCC center operator contract as a short term sole-source contract as
a result of ETA’s termination of the previous center operator, Applied Technologies Services Inc., for
default. Seratto, Inc. is the current operator of the Cleveland JCC.
 c
   As of June 2013, ETA granted APS 4 extensions for its Northlands JCC contract totaling 15 months,
which it accomplished through contract modifications, in violation of the FAR Part 52, Subpart 52.217-8.

In addition, AET and APS appeared to rely on the past experience of ResCare in the
majority of instances. In 3 of the 4 bids for these JCCs, AET and APS cited past
partnerships or teams with ResCare to support their ability to operate these JCCs,
though they did not cite formal teaming agreements or mentor-protégé relationships. 19

These conditions occurred because ResCare, a large business, and AET and APS,
small businesses, failed to recognize, misinterpreted, or disregarded that their

19
   According to the SBA and as referenced in 13 CFR §121.103, teaming agreements and mentor-protégé
relationships do not exempt potential offerors from the ostensible subcontractor rule. OIG also verified with AYS that
AET and APS did not have past, pending, or current mentor-protégé relationships with ResCare.

                                                                             Contractor and DOL Procurement
                                                           8                    Report No. 26-14-002-03-370
                                                 U.S. Department of Labor – Office of Inspector General


relationships created an actual or appearance of affiliation such that ResCare may be
an ostensible subcontractor for these small business set-aside contracts. Together,
ResCare, AET, and APS may have financially benefitted from evading the small
business size requirements. As such, ResCare, AET, and APS may have created an
unfair competitive advantage over other small businesses competing for these 4 JCC
center operator contracts, which contradicts the federal government’s policy to provide
maximum practicable opportunities in its acquisitions to small businesses, as well as the
guiding principles of the FAR to use contractors with the ability to perform and promote
competition in federal acquisitions. 20

We also determined gaps in DOL oversight likely contributed to these occurrences.
During the bid solicitation, evaluation, and award selection process, DOL did not have
processes and controls to ensure large businesses were not performing primary and
vital requirements of JCC contracts as subcontractors for small business firms or that
small businesses were not unusually reliant on large businesses to perform their
contractual requirements. In their bid proposals to operate the 4 noted JCCs, AET and
APS provided information to DOL that should have warranted closer consideration.
Specifically, both small businesses identified ResCare, a large business, as a
subcontractor providing significant center services, including academic and career
technical training. As we previously discussed, ETA and OASAM had a responsibility to
consider these potential working relationships and affiliations, such as ostensible
subcontracting, between ResCare, AET, and APS. As such, DOL did not meet the FAR
requirement to carefully consider potential close working relationships or affiliations,
such as ostensible subcontracting, between prime and subcontractors that may hinder
free competition or result in higher prices. 21

Furthermore, ETA was not able to provide the OIG a listing of all JCC subcontractors
and stated it largely did not monitor the activities of its prime contractors’ subcontractors
due to “privity of contract.” Federal agencies cannot require subcontractors to take
action because privity of contract exists only between the prime contractor and
subcontractor. As such, only the prime contractor can interact directly with its
subcontractors and require them to take action. 22 Privity, however, does not prevent
ETA from developing and maintaining a mechanism or procedures to use as detection
or monitoring tools to mitigate the procurement risks posed by close working
relationships or affiliations between prime and subcontractors. If SBA determines any of
these 4 contracts-subcontracts violated the ostensible subcontractor rule, up to
$126.5 million in government funds set aside for small businesses were not used as
intended. 23 Additionally, these conditions also exposed DOL to procurement risk posed
by potential non-compliance with government-wide statutorily mandated small business


20
   The FAR Part 1, Subparts 1.102(b)(1)(ii) and 1.102(b)(1)(iii).
21
   The FAR Part 19, Subpart 19.301-1 (b), the FAR Part 19, Subpart 19.302 (b), and the FAR Part 44, Subpart
44.202-2(b).
22
   For example, federal agencies can request the prime contractor initiate post-award conferences with its
subcontractors, but must recognize the lack of privity of contract between the Government and subcontractors.
FAR Part 42, Subparts 42.505(a) and 42.505(b)(1).
23
   See Exhibit 1 – Potential Funds Not Used As Intended – Ostensible Subcontracting for details.

                                                                           Contractor and DOL Procurement
                                                         9                    Report No. 26-14-002-03-370
                                      U.S. Department of Labor – Office of Inspector General


contracting goals in Section 15(g)(1) of the Small Business Act. Specifically, if DOL
awarded small business set-aside contracts to businesses that are not considered small
businesses for those procurements, the data reported for DOL’s small business
contracting may be overstated. SBA also stated if a firm that has been awarded a small
business set-aside contract is found to be other than small, then SBA believes that the
procuring agency should not be able to continue to take small business credit for
purposes of its small business goals.

AYS Did Not Agree that ResCare Appeared to be an Ostensible Subcontractor
We provided AYS with the evidence supporting our conclusion that ResCare appeared
to be an ostensible subcontractor to AET and APS. However, AYS generally did not
respond to the similarities we noted in Table 2. Instead, AYS asserted we should not
have concluded ostensible subcontracting violations occurred because factors SBA
cited in its Turner decision are not present for each of the 4 center operator contracts
and subcontracts we noted. AYS’ assertion is not accurate for 2 reasons. First, we used
our comparison to SBA’s Turner decision for illustrative purposes and neither made a
size determination regarding AET or APS for the contracts-subcontracts we tested, nor
concluded that ResCare definitively was an ostensible subcontractor for any of the
contracts-subcontracts we tested, as these areas are the sole purview of SBA. Instead,
we identified sufficient evidence to indicate ostensible subcontractor violations appeared
to have occurred and, as such, we believe ETA should refer these procurements to SBA
for review and take corrective action, if warranted. Second, while SBA considers all
aspects of the relationship between the prime and subcontractor before making a
determination of ostensible subcontracting, it specifically noted in its Turner decision
that an ostensible subcontractor analysis is extremely fact-specific to the procurement
at hand. Furthermore, as previously discussed, SBA has consistently stated that prior
size determination cases are not binding on SBA and do not set precedent for or control
other cases. As such, AYS’ assertion that all factors relating to the Turner case need be
present for SBA to determine ostensible subcontracting violations occurred for the
4 procurements we identified is incorrect.

We also provided ETA with the evidence supporting our belief that ResCare appeared
to be an ostensible subcontractor to AET and APS, and that ETA should refer these
4 contracts-subcontracts to SBA for review and guidance, if warranted. ETA stated it
was unable to agree or disagree and requested OIG involve SBA to determine if an
ostensible subcontractor relationship occurred at the time of the center operator
contract awards. ETA also stated SBA’s determination could impact the award of option
years to AET and APS, as well as have a significant impact on the operation of the
JCCs where AET and APS hold center operations contracts. We believe ETA, not OIG,
should seek the review from SBA regarding the 4 potential ostensible subcontracting
violations we identified and take corrective action, if warranted.




                                                          Contractor and DOL Procurement
                                           10                Report No. 26-14-002-03-370
                                                  U.S. Department of Labor – Office of Inspector General


B) ResCare Did Not Always Comply with the FAR and Its Own Procurement
   Policies.

ResCare did not always comply with the FAR and its own procurement policies when
awarding subcontracts and POs. A Contractor Purchasing System Review (CPSR)
conducted by ETA in 2012 identified a number of serious deficiencies, including
documentation that failed to demonstrate ResCare solicited and awarded subcontracts
through competitive bidding and open competition. The CPSR also showed ResCare’s
procurement policies and procedures did not address key procurement topics and
provide appropriate guidance. 24 We conducted testing for ResCare procurement
activity not covered by ETA in its 2012 CPSR and identified additional deficiencies
caused by ResCare’s failure to follow its own procurement policies and procedures. Of
the 4 JCCs we reviewed, we determined 3 centers circumvented ResCare procurement
policies by splitting POs so they fell under the $3,000 micro-purchase threshold and
would not require competition or sole-source justification; and that purchases at
2 centers were made without obtaining required prior approval for the POs. 25

ETA-Conducted CPSR Report in 2012 Identified Numerous Deficiencies

Due to a conflict of interest complaint that OIG substantiated at the Homestead JCC,
ETA withdrew ResCare's CPSR certification effective September 24, 2012. This
withdrawal required all ResCare-operated JCCs to secure consent from their respective
ETA CO prior to the award of any subcontract that meets the requirements of the FAR.

We reviewed the CPSR that ETA conducted of ResCare in 2012 in accordance with the
FAR. 26 Based on the CPSR, ETA would either re-approve or continue to not approve
ResCare’s procurement system. ETA issued its CPSR report on October 5, 2012, that
contained 31 findings and 15 recommendations. These findings included the following
significant items:

     •   8 findings that ResCare’s procurement files did not adequately
         demonstrate ResCare solicited and awarded subcontracts through
         competitive bidding and open competition;

     •   8 findings that ResCare-operated JCCs have deficiencies in attracting,
         identifying, verifying, and utilizing small businesses. It further highlights
         that the centers did not check the Central Contractor Registration properly,
         verify the size of their vendors’ businesses, or conduct adequate small
         business outreach in their local areas;




24
   CPSR Report 2012-6.
25
   The micro-purchase threshold is $3,000 per the FAR Part 2, Subpart 2.101.
26
   The FAR Part 44, Subparts 44.202-2 and 44.301-303 allow for the approval of purchasing systems that
demonstrate compliance with the FAR principles after a rigorous review of the contractor’s policies, procedures, and
performance under that system.

                                                                            Contractor and DOL Procurement
                                                         11                    Report No. 26-14-002-03-370
                                                 U.S. Department of Labor – Office of Inspector General


       •   4 findings that documentation demonstrating ResCare checked the
           Excluded Parties List Service and obtained statements from certain
           subcontractors that the subcontractor or its principals were not
           suspended, debarred, or proposed for debarment by the Federal
           Government at the time of award were not contained in the procurement
           files;

       •   3 findings that ResCare did not have documentation that the CO reviewed
           ResCare’s Procurement/Property Operations Manual (PRC) and
           procurement Standard Operating Procedures (SOP); and

       •   1 finding that showed some of ResCare’s PRCs did not address corporate
           policies, key procurement topics, and contain appropriate references.
Based on the findings and recommendations contained in the CPSR and the results of
OIG’s report on the conflict of interest complaint at the Homestead JCC, ETA
recommended ResCare submit a Corrective Action Plan (CAP), submit updated and
approved SOPs, and conduct a follow-up center review to determine if all corrective
actions had been successfully implemented within 6 months of ETA approving the CAP.
Once ResCare completed these actions, ETA would make a final recommendation to
ResCare on whether ResCare had made and implemented satisfactory changes to
allow ETA to issue a new certification or determine that its withdrawal of ResCare's
certification should continue. ResCare submitted a CAP and updated SOPs to ETA for
review; however, ETA officials stated they decided not to review and approve the CAP
pending the results of this OIG audit. In addition, ETA officials stated that it will conduct
a new review of ResCare's purchasing system that would include an assessment of
areas with previously identified weaknesses. 27

ResCare Centers Split Purchases to Avoid Competition and Made Purchases Without
Prior Management Approval

We judgmentally selected 4 JCCs operated by ResCare and tested FY 2011 and
FY 2012 transactions for procurement deficiencies not covered by ETA in its 2012
CPSR. We identified additional deficiencies caused by ResCare’s failure to follow its
own procurement policies and procedures. 28 PRC 4010 referenced Job Corps’ Policy
and Requirements Handbook (PRH) Section 5.6, which indicated center operators and
Outreach and Admissions/Career Transition Services contractors shall follow all
applicable procurement regulations, to include those contained in the FAR. PRC 4010
provided detailed guidance requiring competition or sole-source justification as follows:
       Competition

           •   Effective competition will constitute the basic principle of procurement
               and that effective procurement planning, source selection, and award

27
     Based upon budgetary constraints, ETA was planning to complete this review in FY 2015.
28
     See Appendix A, Judgmental Data Selection and PO Testing at Judgmentally-Selected JCCs.

                                                                         Contractor and DOL Procurement
                                                        12                  Report No. 26-14-002-03-370
                                        U.S. Department of Labor – Office of Inspector General


           are mandatory to provide material and services of quality and quantity
           at the lowest cost obtainable in adherence with ethical practices,
           contract stipulations, and government statutes and directives.
   Documentation

       •   Each purchase order file should include a copy of the following:
           3. Justification for the procurement action taken. In each instance
              where a competitive procurement in excess of $3,000 is not made,
              full written justification for the action taken must be included in the
              procurement file.
Of 105 invoices we tested as potential micro-purchase violations, we identified
32 invoices related to 30 POs, totaling approximately $61,000, that exceeded the
micro-purchase threshold. We determined 3 of the JCCs circumvented the policies by
splitting POs so they fell under the $3,000 micro-purchase threshold and would not
require competition or sole-source justification. For example, the Pinellas JCC avoided
competition by splitting a purchase of dri-mesh shirts totaling $8,034 into 3 POs of
$2,678 each. As another example, the South Bronx JCC avoided competition by
splitting the purchase of first responder training for students totaling $3,600 into 2 POs
of $2,400 and $1,200.
Table 3 summarizes the number and dollar value of the micro-purchase violations we
identified by center.
Table 3: Micro-purchase Violations
 Job Corps        Number of        Number of POs Related to    Dollar Value of Micro-purchase
 Center Name      Invoices         Invoices                    Violations (rounded)
 Old Dominion            2                     2                             $4,178
 Pinellas               19                    18                            $37,959
 South Bronx            11                    10                            $19,173
           Total        32                    30                            $61,310

We also tested our 4 judgmentally-selected centers for compliance with ResCare’s
policies for preparing purchase requisitions and POs. We found ResCare could not
provide support that it met its own procurement policies and procedures for the
transactions we identified in Table 3. Both PRC 4210 and 4230 referenced Job Corps’
PRH Section 5.6, which indicated center operators and Outreach and
Admissions/Career Transition Services contractors shall follow all applicable
procurement regulations, to include those contained in the FAR. PRCs 4210 and 4230
provided detailed guidance as follows:

   •   PRC 4210, Preparing Purchase Requisition – The purchase request form
       is signed by the requestor and submitted to the head of the department for
       approval. After department head approval, the purchase requisition is then
       routed in the following order:



                                                              Contractor and DOL Procurement
                                              13                 Report No. 26-14-002-03-370
                                                  U.S. Department of Labor – Office of Inspector General


                    a. Purchasing (for price bidding, lowest price, source determination
                       and shipping information;
                    b. Accounting (for account designation and recording of
                       information in the commitments log);
                    c. Department Head of Administration;
                    d. Center Director (if $3,000 or more involved); and
                    e. Purchasing for actual purchase and preparation of the purchase
                       order

       •   PRC 4230, Preparing the Purchase Order – When purchase order is
           confirmation of order already placed, state same prominently, capital
           letters, in center of description area.

In addition, we examined the information ResCare provided for the 105 invoices to
determine if the JCCs generated POs after the related invoice date. OIG identified
23 POs dated after the receipt of 27 invoices for related purchases totaling
approximately $47,000. We determined that JCCs made these purchases without
obtaining required prior approval at 2 of the 4 JCCs we tested. Specifically, JCCs
generated POs for approval after they made purchases and vendors submitted invoices.
For example, at the Pinellas JCC, the center generated a PO 6 weeks after making a
purchase. As another example, at the South Bronx JCC, the center also generated a
PO 6 weeks after making a purchase.

Table 4 summarizes the number and dollar value of POs generated after invoice dates
by center.
Table 4: POs Generated After Invoice Dates
 Job Corps Center Name              Number of                  Number of         Dollar Value of POs
                                    Invoices                   POs Related       Generated After the
                                                               to Invoices       Invoice Date (rounded)
 Pinellas                                          12                12                   $25,653
 South Bronx                                       15                11                   $21,359
                                    Total          27                23                   $47,012

Note: $17,498 of the Pinellas POs and $10,359 of the South Bronx POs listed in table 4 (a total of
$27,857) are also included in the micro-purchase violations noted in table 3.

We estimated up to $61,310 for the micro-purchase violations and up to an additional
$19,155 for the other PO violations not included in the micro-purchase violations for a
total of $80,465 in funds put to better use if improvements to ETA oversight result in its
COs identifying violations. 29

These conditions occurred because ResCare disregarded the FAR and its own
procurement policies and procedures. ResCare acknowledged the deficiencies ETA
found in its CPSR review and provided ETA a CAP intended to address these
deficiencies. 30 ResCare acknowledged it made micro-purchase errors, as well as
29
     PO violations not included in the micro-purchase violations: $47,012 - $27,857 = $19,155 (see also Table 4).
30
     OIG did not assess ResCare’s CAP or determine that the CAP adequately addressed deficiencies ETA identified.

                                                                           Contractor and DOL Procurement
                                                         14                   Report No. 26-14-002-03-370
                                                 U.S. Department of Labor – Office of Inspector General


generated POs after the receipt of invoices for purchases, and provided documentation
for the violations discussed above. However, the information and documentation they
provided did not support that ResCare met its own procurement policies and procedures
for these purchases.
We also determined a limited CPSR that OASAM conducted in 2010 was a contributing
factor to the procurement deficiencies we and ETA identified. 31 Specifically, OASAM
granted its approval of ResCare’s procurement system in 2010 for a period of 3 years
based on a CPSR conducted by OASAM’s contractor. 32 The contractor based its
recommendation for CPSR approval on a review of procurement activities at only 1 of
the JCCs ResCare operated and the procurement policies, procedures, and directives
submitted by the center and ResCare’s corporate office. ETA officials told us that a
review of only 1 JCC was driven by budgetary constraints. We believe a more
representative review of ResCare’s procurement activities in 2010, given its volume of
JCC subcontracts and POs, may have identified the systemic deficiencies identified
during the ETA-conducted CPSR in 2012 and during this audit.

RECOMMENDATIONS

We recommend that the Assistant Secretary for Employment and Training require the
Regional Job Corps Offices and respective ETA COs to:

     1. Refer the 4 small business set-aside contracts we identified held by AET
        and APS to SBA for review and guidance on corrective action, if
        warranted;

     2. Develop and implement a mechanism or procedures for ensuring each
        small business set-aside contract is free of potential violations of affiliation
        rules;

     3. Develop and implement a comprehensive training plan for procurement
        staff, including training on affiliation, ostensible subcontracting, and the
        scope of privity;

     4. Conduct the new CPSR planned for ResCare in FY 2015, or, if the new
        CPSR is cancelled or delayed, follow up on ResCare’s CAP, as well as
        the procurement weaknesses identified in ETA’s 2012 CPSR report and
        this OIG audit report.

     5. Develop and implement procedures to ensure ResCare complies with its
        center operator contract provisions and its own procurement policies and
        procedures, such as a memorandum to ResCare reinforcing that the
        centers it operates receive the required approval and documentation for

31
   CPSR Report 10-002. OASAM’s approval required ResCare to obtain CO consent only for health related
subcontracts.
32
   As we previously noted, the Office of Job Corps’ contracting function was under the OASAM prior to October 2010.

                                                                          Contractor and DOL Procurement
                                                        15                   Report No. 26-14-002-03-370
                                        U.S. Department of Labor – Office of Inspector General


       purchases and that center purchases are free of micro-purchase
       violations.

ETA’s RESPONSE

The Assistant Secretary for Employment and Training agreed with our results and
recommendations and stated it will take steps to address the issues identified in the
report, which include: referring three of the four identified small business set-aside
contracts to SBA for review, as ETA has since awarded the Cleveland JCC contract to
another vendor; consulting with OASAM’s Procurement Policy Office and the SBA to
develop universal procedures to assist DOL procurement staff in ensuring small
business set aside contracts are free of potential violations of affiliation rules; providing
additional training to procurement staff on contractor affiliation; and seeking support
from SBA to help identify warning signs of potential contractor/subcontractor affiliation
problems.

ETA stated it will conduct a new CPSR of ResCare in early FY 2015 that will consist of
site visits to the corporate office and three ResCare-operated JCCs, as well as issue a
copy of the CPSR report and purchasing system approval decision to OIG. ETA
affirmed COs/Specialists and CO Representatives (COR) have responsibility for
adequately monitoring contractor performance. ETA stated it will take additional steps to
reemphasize the importance of adequate contract monitoring for COs/Specialists and
CORs and noted it had established a quarterly COR training program that will include
training to provide sufficient oversight of contract terms and conditions. Lastly, ETA
stated that OCM will develop a COR contract monitoring checklist to assist CORs in
providing adequate oversight of the JCC contracts. ETA’s complete response is
included in Appendix C.

RESCARE’S RESPONSE

ResCare agreed with our results and recommendations and stated that based on OIG's
recommendations, it had taken steps to address the issues identified in this and OIG’s
2012 audit report. ResCare stated it had strengthened its procurement policies and
enhanced its practices, as well as conducted training in these areas. ResCare stated it
will take additional steps to continue monitoring progress to confirm total compliance
across all JCCs operated by ResCare. ResCare provided a number of supporting
documentation including: the CAP it submitted to ETA based on CPSR 2012-6; revised
ResCare policies distributed to all ResCare-operated JCCs in 2013; training that
ResCare’s Director of Property/Purchasing conducted in October 2013 to ensure JCC
properly implemented the revised policies; documentation for ResCare’s use of an
outside vendor in December 2013 to conduct additional training as recommended by
ETA OCM; a listing of unscheduled audits conducted by ResCare’s
Purchasing/Property Director in 2013 and 2014 to confirm JCCs have effectively
implemented ResCare’s revised procurement policies; and a listing of a
Purchasing/Subcontract reviews added to its Best in Class audits scheduled in


                                                             Contractor and DOL Procurement
                                              16                Report No. 26-14-002-03-370
                                              U.S. Department of Labor – Office of Inspector General


2013 and 2014 that ResCare’s Program Support Team conducted. ResCare’s complete
response is included in Appendix D. 33

AYS’ RESPONSE

AYS disagreed with our results and recommendations. AYS asserted the audit did not
comply with generally accepted government auditing standards because it relied solely
on the Turner case for criteria, used incorrect and insufficient criteria, and an ETA
referral to SBA for review would have no practical effect. AYS asserted SBA’s decision
was “an incorrect and incomplete statement of the law regarding the ostensible
subcontractor rule;” however, this is an issue for SBA to discuss, not OIG. Contrary to
AYS’ assertion, OIG did not use the Turner case as the sole criteria to conduct this
audit; rather we used Turner as an illustrative case in conjunction with our review of the
criteria noted in the report. In addition, AYS asserted, “the Draft Report presumes that
the JCCs at issue are identical in all material respects to the Turner JCC,” but this is
incorrect. OIG made no such assumption and stated that we found significant
similarities to the Turner case, not that these contracts-subcontracts were identical to
those in the Turner case or that the JCCs we identified are identical to the Turner JCC.

AYS asserted we ignored the “key employees” aspect of these contracts, but this is
incorrect. We stated in the report that we tested all 7 subcontracts ResCare received
from the 3 small business center operators using factors SBA cited in its Turner
decision, such as academics and career technical training, including staffing for these
areas, proposed key and total JCC staffing, technical proposal element weights, and
percentage of subcontracted work. In addition, AYS asserted OIG ignored the
performance information contained in the proposals for the 4 contracts-subcontracts
where we identified ResCare appeared to be an ostensible subcontractor. AYS’
assertion is incorrect. As we note in the report, for 3 of these 4 contract proposals, AYS
cited the longstanding partnerships and teams with ResCare for JCC operations and
services.

AYS continued to assert that all three factors SBA cited in the Turner case need to be
present for these other JCCs. We disagree. Though we considered the information AYS
provided to us in its Statement of Facts response, we emphasize that the Job Corps
program is a no-cost education and vocational training program authorized by WIA and,
as such, education and career technical services are primary and vital components of
this program and JCC operation. In fact, education and career technical tasks carried
significant weight in each solicitation. We also find it important that in the appeal of the
Turner case, SBA upheld the Area Office’s original determination that AET was unduly
reliant on ResCare and then added its own finding that ResCare would perform primary
and vital contract requirements—career preparation and career development
(academics and career technical training). The SBA Office of Hearings and Appeals
noted that these “were the most heavily weighted elements of each offeror’s technical
proposal, indicating that the DOL considered these to be the most important elements to

33
     OIG did not assess ResCare’s attachments to its written comments.

                                                                    Contractor and DOL Procurement
                                                    17                 Report No. 26-14-002-03-370
                                     U.S. Department of Labor – Office of Inspector General


be performed.” As we note in the report, SBA bases size determinations after
consideration of all aspects of the relationship between the prime and subcontractor and
that each case is fact-specific.

AYS’ complete response is included in Appendix E.

We appreciate the cooperation and courtesies that AYS, ETA, and ResCare personnel
extended to OIG during this audit. OIG personnel who made major contributions to this
report are listed in Appendix F.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                         Contractor and DOL Procurement
                                          18                Report No. 26-14-002-03-370
          U.S. Department of Labor – Office of Inspector General




Exhibit




                              Contractor and DOL Procurement
               19                Report No. 26-14-002-03-370
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                             Contractor and DOL Procurement
              20                Report No. 26-14-002-03-370
                                                   U.S. Department of Labor – Office of Inspector General


                                                                                                            Exhibit 1
Potential Funds Not Used As Intended – Ostensible Subcontracting

If SBA determines any of the 4 contracts-subcontracts below violated the ostensible
subcontractor rule, up to $126.5 million in government funds set aside for small
businesses were not used as intended.

To determine the amount of potential government funds not used as intended, we
estimated the total value of the prime contracts, inclusive of option years, based on the
exercised prime contracts. Where the specific values of the option years was not
provided in the contract, we estimated the option year values based on the second base
year of the contracts, where sufficient information was present to make the estimate.

    Job Corps Center Name                                   Center Operator / Job          Prime Contract Base
    Contract Details                                        Corps Region                   and Option Value Total


    Bamberg
    DOLJ11UA00033                                           AET / Atlanta                                 $38,526,407
    8/1/2011 - 7/31/2013 (base)
    8/1/2013 - 7/31/2016 (options)

    Westover
                                                                                                                           a
    DOLJ10QA00002                                           AET / Boston                                 $30,735,014
    8/1/2010 - 7/31/2012 (base)
    8/1/2012 - 7/31/2015 (options)
              b,c
    Northlands
    DOLJ09QA00011                                           APS / Boston                                  $41,196,422
    7/1/2010 - 6/30/2012 (base)
    7/1/7012 - 6/30/2015 (options)
                                                                             Subtotal                    $110,457,843
             b,d
    Cleveland
    DOLJ11RA00042                                                                                                          a
                                                            AET / Chicago                                $16,001,859
    3/1/2011 - 2/29/2012 (base)
    3/1/2012 - 8/31/2012 (6 mos. option)
                                                                                  Total                  $126,459,702
a
  The values in the table above for the Westover and Cleveland JCCs represent the base prime contract values only.
We did not have sufficient information to estimate option year values.
b
  AET and APS no longer operate the Cleveland and Northlands JCCs, respectively.
c
  As of June 2013, ETA granted APS 4 extensions for its Northlands JCC contract totaling 15 months, which it
accomplished through contract modifications, in violation of the FAR Part 52, Subpart 52.217-8.
d
  ETA awarded AET the Cleveland JCC center operator contract as a short term sole-source contract as a result of
ETA’s termination of the previous center operator, Applied Technologies Services Inc., for default. Seratto, Inc. is the
current operator of the Cleveland JCC.




                                                                              Contractor and DOL Procurement
                                                          21                     Report No. 26-14-002-03-370
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                             Contractor and DOL Procurement
              22                Report No. 26-14-002-03-370
             U.S. Department of Labor – Office of Inspector General




Appendices




                                 Contractor and DOL Procurement
                  23                Report No. 26-14-002-03-370
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                             Contractor and DOL Procurement
              24                Report No. 26-14-002-03-370
                                                 U.S. Department of Labor – Office of Inspector General


                                                                                                 Appendix A
Objective, Scope, Methodology, and Criteria

Objective

Our audit objective was to answer the following question:

        Did the practices of ResCare and the prime contractors it performed work for
        comply with federal procurement regulations?

In order to the answer the objective, we performed audit work in the following areas:

       A) Contractor-subcontractor relationships between JCC operators selected by DOL
          for small business set-aside contracts and ResCare as a subcontractor.

       B) Subcontracts ResCare awarded as the prime contractor operating JCCs.

Scope

Our scope included the information relevant to the prime contracts and subcontracts in
effect during FY 2011 through FY 2012. 34 The audit team reviewed information obtained
from ETA; ResCare; AET and APS—collectively referred to as AYS, the umbrella
company for the prime operators of 6 of the 7 JCC contracts where ResCare was a
subcontractor, and 4 ResCare-operated JCCs: Guthrie, Old Dominion, Pinellas, and
South Bronx. We also reviewed a small business size determination and related appeal
issued by SBA for the Turner JCC small business set-aside contract. 35 We conducted
audit work at ETA’s National Office in Washington, DC. We conducted additional
fieldwork at our Chicago, IL, San Francisco, CA, and Washington, DC, offices from
October 2012 through December 2013.

We considered the internal control elements of control environment, risk assessment,
control activities, information and communication, and monitoring during our planning
and substantive audit phases.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.




34
     We updated the contract-subcontract information through June 2014, as appropriate.
35
     Size Determination No. 6-2011-009 (2010) and subsequent appeal decision SBA No. SIZ-5192 (2011).

                                                                          Contractor and DOL Procurement
                                                        25                   Report No. 26-14-002-03-370
                                                U.S. Department of Labor – Office of Inspector General


Methodology

To accomplish our objective, we reviewed applicable laws, regulations, and policies;
reviewed ETA and OASAM reports on ResCare’s purchasing system; tested PO
information provided by ResCare and 4 ResCare-operated JCCs for FY 2011 and FY
2012; and interviewed management and staff at ETA and ResCare, as well as AYS.

We also reviewed a protest a small business made in 2010 for the Turner JCC small
business set-aside contract, which challenged the small business size status of the
small business OASAM selected for the award. 36 SBA has sole purview to make
determinations of small business size and SBA determines whether a small business
qualifies as a small business concern or is affiliated with a large business using a
number of factors. If SBA determined a small business violated affiliation rules, such as
ostensible subcontracting, to obtain a small business set-aside procurement, SBA
considers the small business as other than small and ineligible for that procurement. As
a result of the Turner JCC protest, SBA found ResCare was an ostensible subcontractor
to AET.

To assess whether ResCare was potentially an ostensible subcontractor to other small
businesses with small business set-aside prime contracts for JCC operation, we used
the size determination factors SBA used in the Turner decision to evaluate the
7 relevant JCC subcontracts ResCare received during FY 2011 and FY 2012. 37 As
previously discussed in this report, prior size determination cases are not binding on
SBA and do not set precedent for or control other cases; however, SBA has cited prior
size determinations in a number of cases for illustrative purposes. Accordingly, we used
our comparison to SBA’s Turner decision for illustrative purposes and neither made a
size determination regarding AET or APS for the contracts-subcontracts we tested, nor
concluded that ResCare definitively was an ostensible subcontractor for any of the
contracts-subcontracts we tested, as these areas are the sole purview of SBA. We also
used this information to determine whether ETA should refer any of the
contracts-subcontracts we tested to SBA for review and corrective action, if warranted.
Internal Controls

We considered the internal control elements of control environment, risk assessment,
control activities, information and communication, and monitoring during our planning
and substantive audit phases. We evaluated ResCare’s internal controls for reasonable
assurance that its processes for awarding of subcontracts and payment of invoices
satisfied federal and Job Corps requirements. We also evaluated ETA’s internal controls
for reasonable assurance that its monitoring of prime and subcontracts satisfied federal
requirements. Our consideration of these controls would not necessarily disclose all
matters that might be reportable conditions. In addition, inherent limitations of internal

36
   Shortly after OASAM announced AET as the successful bidder, another small business that competed for the
contract filed a protest with SBA challenging AET’s size status and eligibility for the contract award.
37
   Our scope included two centers no longer operated by AYS, which included subcontracts to ResCare, as of June
2014.

                                                                         Contractor and DOL Procurement
                                                       26                   Report No. 26-14-002-03-370
                                      U.S. Department of Labor – Office of Inspector General


controls, misstatements, losses, or noncompliance may nevertheless occur and not be
detected.

Data Reliability

We also relied on the computer-processed data contained in ResCare’s general ledger
for 4 JCCs. We assessed the reliability of the data by: (1) performing various tests of
required data elements; (2) obtaining information from ResCare and center operator
staff knowledgeable of the data; (3) obtaining supporting data for anomalous data; and
(4) reviewing and incorporating, as appropriate, work of other OIG auditors to support
the testing performed. Based on these tests and assessments, we concluded the data
was sufficiently reliable to address our audit objective.

Judgmental Data Selection

We judgmentally selected 4 JCCs for data reliability and procurement violation testing
that we determined were at greater risk for not complying with ETA’s policies. We based
our determination of risk on:

   •   Analysis of 22 Regional Office Center Assessments conducted for the
       centers where ResCare was the prime contractor or subcontractor in
       FY 2011 and FY 2012 to identify any anomalies pertaining to the audit
       objective, including Procurement & Subcontracting, Financial
       Management, Program Management, Other Issues/Deficiencies Identified;

   •   Examination of subcontract award dates and subcontract period of
       performance dates at the 14 centers ResCare operated in FY 2011
       through FY 2012 to detect multiple subcontract awards for the same
       performance period to the same subcontractor; and

   •   Analysis of changes in the number of subcontracts reported by ResCare
       from its initial response to OIG's request for subcontracting information to
       its subsequent response to OIG for clarifying subcontract information.

The JCCs we judgmentally selected were:

Pinellas (Atlanta regional office); Old Dominion (Philadelphia regional office); Guthrie
(Dallas regional office); and South Bronx (Boston regional office).

PO Testing at Judgmentally-Selected JCCs

To identify possible purchases ResCare split to avoid the $3,000 competitive purchase
cap or price analysis, we applied the following criteria to general ledger information
provided by the 4 judgmentally selected JCCs:

   1. Multiple purchases under $3,000;

                                                           Contractor and DOL Procurement
                                            27                Report No. 26-14-002-03-370
                                      U.S. Department of Labor – Office of Inspector General


   2. Average purchase price for multiple purchases was $1,000 or greater;
   3. The multiple purchases combined exceed $3,000;
   4. The multiple purchases are to the same vendor;
   5. Number of purchases that met criteria 1 through 3 above were less than or equal
      to 6 (any purchase larger than $18,000 would require 6 or more purchases to
      avoid the micro-purchase threshold);
   6. JCCs made these purchases within 30 days of each other; and
   7. The purchases were similar enough for ResCare to categorize them with the
      same invoice distribution code.

We excluded blanket purchase agreements (to the extent we could determine one
existed), 1-time purchases, medical subcontracts (must be approved by ETA),
purchases made from government agencies (Job Corps, Department of Health and
Human Services, Defense Finance and Accounting Services, etc.), and utility company
purchases (electric, gas, water, etc.)

OIG identified 105 invoices, totaling nearly $182,000, with 41 vendors at the Guthrie,
Old Dominion, Pinellas, and South Bronx JCCs that met the above 7 criteria. We
requested ResCare provide copies of the POs associated with each invoice that
included the date of purchase, vendor name, and purchase description to demonstrate
that these were separate purchases. Based on information obtained from ResCare and
using the same criteria above, OIG identified 32 invoices related to 30 POs totaling
approximately $61,000 that exceeded the micro-purchase threshold. Specifically,
groups of POs that ResCare JCCs submitted to DOL for reimbursement were for the
same or similar product, with the same vendor, and within a 30 day or less period of
time. In addition, we examined the information ResCare provided for the 105 invoices to
determine if JCCs generated any of the POs after the related invoice date. OIG
identified 23 POs dated after the receipt of 27 invoices for related purchases totaling
approximately $47,000.

Criteria

   •    Federal Acquisition Regulation
   •    13 CFR § 121.103(h)(4) (Ostensible Subcontractor)
   •    13 CFR § 125.6 (Limitations on subcontracting)
   •    Small Business Administration Size Determination No. 6-2011-009, Solicitation #
        DOLJ11UA00037, Alutiiq Education & Training, LLC (2010)
   •    SBA No. SIZ-5192 (2011), Appeal of Size Determination No. 6-2011-009,
        Solicitation # DOLJ11UA00037
   •    Procedures ResCare (Procurement Policies and Procedures)
   •    Office of Contracts Management Compendium for Job Corps Regional
        Procurements
   •    U.S. Government Accountability Office, Standards for Internal Control in the
        Federal Government
   •    Job Corps Policy and Requirements Handbook


                                                          Contractor and DOL Procurement
                                           28                Report No. 26-14-002-03-370
                                               U.S. Department of Labor – Office of Inspector General


     •   Small Business Act
     •   Workforce Investment Act of 1998

Center Operator Adherence to the FAR

Center operators are required to adhere to certain aspects of the FAR by their contracts
and Job Corps’ PRH:

         The center shall establish systems to procure property, services, and
         supplies in a cost-efficient and environmentally-friendly manner in
         accordance with government policies. The contractor shall also establish
         systems to provide procedures for receipt and accountability of
         government-owned property, material, and supplies, in accordance with
         PRH 5.6.

Further, Job Corps’ PRH, section 5.6, R1 indicated center operators and Outreach and
Admissions/Career Transition Services contractors shall follow all applicable
procurement regulations, to include those contained in the FAR.

In August 2011, ETA and DOL’s Office of the Solicitor indicated only the following
sections of the FAR were applicable:

     •   FAR Part 9—Responsible Prospective Contractors
     •   FAR Part 44—Subcontracting Policies and Procedures
     •   FAR Part 52—Solicitation Provisions and Contract Clauses

These sections of the FAR, while not requiring direct compliance with all aspects of the
FAR, required center operators to establish procurement policies and procedures that
are consistent with the FAR.

CPSR

The FAR Part 44, Subpart 44.302, requires ETA to determine the need for a CPSR
based on, but not limited to, the past performance of the contractor and dollar value of
subcontracts (generally $25 million). The FAR Part 44, Subpart 44.301, states the
objective of a CPSR is to evaluate the efficiency and effectiveness with which the
contractor spends government funds and complies with government policy when
subcontracting. The review provides the CO with a basis for granting, withholding, or
withdrawing approval of the contractor’s purchasing system. 38 Furthermore, the
FAR Part 44, Subpart 44.303, states the considerations listed in the FAR Part 44,
Subpart 44.202-2 for consent evaluation of particular subcontracts also shall be used to
evaluate the contractor’s purchasing system, including the contractor’s policies,
procedures, and performance under that system. Special attention shall be given to:

38
  ETA reviews each center operator’s procurement systems every 3 years. If ETA “approved” the procurement
system, ETA contracting officials reduce their oversight of the center operator’s procurement activities.

                                                                        Contractor and DOL Procurement
                                                      29                   Report No. 26-14-002-03-370
                                      U.S. Department of Labor – Office of Inspector General



   (a) The results of market research accomplished;
   (b) The degree of price competition obtained;
   (c) Pricing policies and techniques, including methods of obtaining certified cost or
       pricing data…;
   (d) Methods of evaluating subcontractor responsibility, including the contractor’s use
       of the System for Award Management Exclusions…;
   (e) Treatment accorded affiliates and other concerns having close working
       arrangements with the contractor;
   (f) Policies and procedures pertaining to small business concerns…;
   (g) Planning, award, and postaward management of major subcontract programs;
   (h) Compliance with Cost Accounting Standards in awarding subcontracts;
   (i) Appropriateness of types of contracts used; and
   (j) Management control systems, including internal audit procedures, to administer
       progress payments to subcontractors.

In addition, DOL policy for conducting CPSRs (Section 4.9) states that it is in the
government’s interest to perform CPSRs when a contractor’s total combined business
with Job Corps exceeds $25 million. The policy further clarifies the center operators’
responsibility to establish procurement policies and procedures that are consistent with
the FAR. The DOL policy states that under the terms of center operator contracts, COs
are responsible for ensuring that contractors procure goods and services on behalf of
the Job Corps program in conformance with the contract provisions and principles
detailed in the FAR. Contracting officers can either review and consent to all
subcontracts for the contract, or may approve the contractor’s purchasing system. The
policy also states that the FAR allows for approval of purchasing systems that
demonstrate compliance with the FAR principles after a rigorous review of all
purchasing manuals and procedures.




                                                          Contractor and DOL Procurement
                                           30                Report No. 26-14-002-03-370
                              U.S. Department of Labor – Office of Inspector General


                                                                        Appendix B
Acronyms

AYS          Alutiiq Youth Services, LLC

AET          Alutiiq Education and Training, LLC (subsidiary of AYS)

APS          Alutiiq Professional Services, LLC (subsidiary of AYS)

Bamberg      Bamberg Job Corps Center, Bamberg, SC

CAP          Corrective Action Plan

Cleveland    Cleveland Job Corps Center, Cleveland, OH

CO           Contracting Officer

COR          Contracting Officer’s Representative

CPSR         Contractor Purchasing System Review

DOL          U.S. Department of Labor

EMC          Education Management Corporation

ETA          Employment and Training Administration

FAR          Federal Acquisition Regulation

FY           Fiscal Year

Guthrie      Guthrie Job Corps Center, Guthrie, OK

Homestead    Homestead Job Corps Center, Homestead, FL

JCC          Job Corps Center

Job Corps    Office of Job Corps

Northlands   Northlands Job Corps Center, Vergennes, VT

OASAM        Office of the Assistant Secretary for Administration and
             Management

OCM          Office of Contracts Management, Employment and Training
             Administration

                                                    Contractor and DOL Procurement
                                      31               Report No. 26-14-002-03-370
                                U.S. Department of Labor – Office of Inspector General



OIG            Office of Inspector General

Old Dominion   Old Dominion Job Corps Center, Monroe, VA

Pinellas       Pinellas Job Corps Center, St. Petersburg, FL

PO             Purchase Order

PRC            ResCare Procurement/Property Operations Manual

PRH            Job Corps Policy and Requirements Handbook

ResCare        ResCare, Inc.

SBA            U.S. Small Business Administration

SOP            Standard Operating Procedures

South Bronx    South Bronx Job Corps Center, Bronx, NY

Turner         Turner Job Corps Center, Albany, GA

Westover       Westover Job Corps Center, Chicopee, MA




                                                    Contractor and DOL Procurement
                                     32                Report No. 26-14-002-03-370
                               U.S. Department of Labor – Office of Inspector General


                                                                       Appendix C
ETA Response to Draft Report




                                                   Contractor and DOL Procurement
                                    33                Report No. 26-14-002-03-370
U.S. Department of Labor – Office of Inspector General




                    Contractor and DOL Procurement
     34                Report No. 26-14-002-03-370
U.S. Department of Labor – Office of Inspector General




                    Contractor and DOL Procurement
     35                Report No. 26-14-002-03-370
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                             Contractor and DOL Procurement
              36                Report No. 26-14-002-03-370
                                   U.S. Department of Labor – Office of Inspector General


                                                                           Appendix D
ResCare Response to Draft Report




                                                       Contractor and DOL Procurement
                                        37                Report No. 26-14-002-03-370
U.S. Department of Labor – Office of Inspector General




                    Contractor and DOL Procurement
     38                Report No. 26-14-002-03-370
                               U.S. Department of Labor – Office of Inspector General


                                                                       Appendix E
AYS Response to Draft Report




                                                   Contractor and DOL Procurement
                                    39                Report No. 26-14-002-03-370
U.S. Department of Labor – Office of Inspector General




                    Contractor and DOL Procurement
     40                Report No. 26-14-002-03-370
U.S. Department of Labor – Office of Inspector General




                    Contractor and DOL Procurement
     41                Report No. 26-14-002-03-370
U.S. Department of Labor – Office of Inspector General




                    Contractor and DOL Procurement
     42                Report No. 26-14-002-03-370
U.S. Department of Labor – Office of Inspector General




                    Contractor and DOL Procurement
     43                Report No. 26-14-002-03-370
U.S. Department of Labor – Office of Inspector General




                    Contractor and DOL Procurement
     44                Report No. 26-14-002-03-370
U.S. Department of Labor – Office of Inspector General




                    Contractor and DOL Procurement
     45                Report No. 26-14-002-03-370
U.S. Department of Labor – Office of Inspector General




                    Contractor and DOL Procurement
     46                Report No. 26-14-002-03-370
U.S. Department of Labor – Office of Inspector General




                    Contractor and DOL Procurement
     47                Report No. 26-14-002-03-370
U.S. Department of Labor – Office of Inspector General




                    Contractor and DOL Procurement
     48                Report No. 26-14-002-03-370
U.S. Department of Labor – Office of Inspector General




                    Contractor and DOL Procurement
     49                Report No. 26-14-002-03-370
U.S. Department of Labor – Office of Inspector General




                    Contractor and DOL Procurement
     50                Report No. 26-14-002-03-370
U.S. Department of Labor – Office of Inspector General




                    Contractor and DOL Procurement
     51                Report No. 26-14-002-03-370
U.S. Department of Labor – Office of Inspector General




                    Contractor and DOL Procurement
     52                Report No. 26-14-002-03-370
U.S. Department of Labor – Office of Inspector General




                    Contractor and DOL Procurement
     53                Report No. 26-14-002-03-370
U.S. Department of Labor – Office of Inspector General




                    Contractor and DOL Procurement
     54                Report No. 26-14-002-03-370
U.S. Department of Labor – Office of Inspector General




                    Contractor and DOL Procurement
     55                Report No. 26-14-002-03-370
U.S. Department of Labor – Office of Inspector General




                    Contractor and DOL Procurement
     56                Report No. 26-14-002-03-370
                                   U.S. Department of Labor – Office of Inspector General


                                                                           Appendix F
Acknowledgements

Key contributors to this report were Ray Armada (Audit Director), Heather T. Atkins
(Audit Manager), Jesse G. Blatz and Michael A. Towne (Auditors), and Carolyn Cayode-
Gorman (OIG Assistant Counsel).




                                                       Contractor and DOL Procurement
                                        57                Report No. 26-14-002-03-370
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                             Contractor and DOL Procurement
              58                Report No. 26-14-002-03-370
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
